         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Alleged Misuse of American
Recovery and Reinvestment Act
Grant Funds by the Western Arizona
Council of Governments




INS-RA-12-01                       February 2012
                                 Department of Energy
                                   Washington, DC 20585
                                        February 9, 2012


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY

FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                            for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Alleged Misuse of American
                         Recovery and Reinvestment Act Grant Funds by the Western Arizona
                         Council of Governments"
BACKGROUND
The Department of Energy's Weatherization Assistance Program received $5 billion under the
American Recovery and Reinvestment Act of 2009 to improve the energy efficiency of homes,
multi-family rental units and mobile homes owned or occupied by low income persons.
Subsequently in 2009, the Department awarded a 3-year Weatherization Program grant for
approximately $57 million to the State of Arizona. Arizona's Office of Energy administers grant
funds through 10 sub-grantees that are responsible for conducting weatherization activities in
designated regions throughout the State.
Arizona awarded one sub-grantee, the Western Arizona Council of Governments (WACOG),
approximately $5.9 million of the Department's Recovery Act grant funds to weatherize homes
in the western Arizona counties of Yuma, Mohave and La Paz. WACOG is a non-profit
governmental association of local Arizona governments that provides a number of community
services under various Federally funded programs. In addition to Department funds, WACOG
also utilizes grant funds from the Low Income Home Energy Assistance Program (LIHEAP) and
grant funds from utility companies in Arizona to support its weatherization efforts.
In response to a complaint alleging a pattern of wasteful spending of weatherization funds and
mismanagement of the Weatherization Program at WACOG, the Office of Inspector General
initiated this inspection. The inspection objective was to determine whether Weatherization
Program funds were used and administered for intended purposes and whether WACOG
complied with relevant Federal and State regulations and program guidelines.
CONCLUSIONS AND OBSERVATIONS
We were unable to substantiate the allegations that WACOG engaged in a pattern of wasteful
spending or that it mismanaged the Weatherization Program. We did, however, observe several
issues related to procurement of goods and services and the accuracy of Recovery Act reporting
that should be addressed. Specifically, we observed that:

   •   WACOG expended approximately $133,000 for building improvements, office
       furnishings, software upgrades and a telephone system without obtaining required
       approvals from Arizona;
   •   Contrary to Federal procurement policy, WACOG's purchase records did not always
       contain documentation showing evidence that a cost or price analysis was performed to
       determine if the best value was obtained. Also, WACOG's purchase policy of requiring
       price quotes based on a cost per unit threshold rather than an aggregate cost of the total
       purchase was not consistent with Arizona and Federal procurement policy;

    • Neither WACOG nor Arizona accurately reported completed housing units. WACOG
      reported 525 completed housing units, even though 40 (7.6 percent) were termed
      "walkaways" where only initial energy audits were conducted with no weatherization
      work actually performed. At the State level, Arizona reported 4,365 completed housing
      units, but 242 (5.5 percent) had only received the initial energy audit; and,

   •   WACOG had not always provided Arizona with accurate information regarding work
       performed on completed weatherized houses. Our review of a sample of 50 completed
       housing units revealed that 60 percent of WACOG's entries into the State's
       Weatherization Program database were inaccurate with regard to the actual work
       performed on the homes or the costs allocated to various funding sources.

These weaknesses occurred, in part, because of a lack of understanding and execution of Federal
grant requirements, Department Weatherization Program policy and Arizona Weatherization
Program requirements. Weaknesses in WACOG's management of the procurement of goods and
services could result in the misuse of Weatherization Program funds and increase the risk of
fraud, waste and abuse in the areas of capital expenditures and the purchasing of goods and
services. In addition, weaknesses in the reporting of completed housing units and actual work
performed could misrepresent the effectiveness of the Weatherization Program and hinder
Arizona's ability to properly oversee WACOG's use of Recovery Act funds. As detailed in the
remainder of our report, improvements in these areas should serve to strengthen management of
WACOG's Weatherization Program.

Prior Approval for Capital Expenditures

During our testing of a sample of 76 of WACOG's purchases of goods and services, we found
that WACOG did not always obtain prior approval from Arizona for direct cost capital
expenditures over $5,000 as required. Specifically, Office of Management and Budget (OMB)
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, requires
organizations that receive Federal grant funds to obtain prior approval from the awarding agency
for direct cost capital expenditures over $5,000. Capital expenditures include purchases of
capital assets such as buildings, equipment, land, office equipment and furnishings, information
technology equipment, telephone systems or any improvements that materially increase the value
or useful life of the assets.

In spite of these requirements, we determined, however, that WACOG made approximately
$133,000 in capital expenditures for building improvements, office furnishings, software
upgrades and a telephone system without seeking required approvals. WACOG officials told us
they did not realize prior approval was necessary for purchases made during the Weatherization
Program grant "ramp up" period as funds awarded during this period were to be used specifically
in preparation for the anticipated 10 fold increase in weatherization projects. We noted that the

                                                2
purchases were made early in the grant period and appeared to be directly or indirectly in support
of the Weatherization Program. However, we concluded that an independent review and
approval is important to ensure that major capital expenditures are reasonable and remain within
the scope of the Weatherization Program.

Purchasing of Goods and Services

Our testing of the 76 purchases of goods and services revealed weaknesses in WACOG's
procurement policies and practices that included inconsistencies regarding documentation or
information needed to provide an auditable record of the purchases. Additionally, we identified
problems concerning justification for the method of the purchases, evidence of a comparison of
price quotations, market prices or any determination of cost or price reasonableness, allocability
or allowability.

                                       Leased Office Space

During our review, we noted that WACOG's accounting ledgers showed a payment of $104,470
in December 2009 to a landlord in Kingman, Arizona, but the payment was not supported by
appropriate documentation. The initial documents provided by WACOG to support this payment
included a 5-year lease agreement between WACOG and the landlord showing that the $104,470
payment was for renovation of office space in Kingman. However, there was no contractual
agreement or invoice detailing the exact purpose of this payment. WACOG officials told us they
had an office in Kingman, but needed additional office space there to accommodate the increased
Weatherization Program activities and the addition of eight weatherization personnel in the
Kingman area. WACOG officials confirmed that the payment of $104,470 was for
improvements to the new office space which adjoined an existing WACOG office.

Upon further review, we learned that WACOG officials provided the landlord with a list of
needed improvements to the adjoining office space that would meet their expansion needs, and
that the landlord hired a contractor to complete the improvements. We also learned that
WACOG and the landlord signed a 5-year lease agreement for $2,040 per month for the
additional space. WACOG officials said that the monthly rental cost on the property would have
been $4,400 per month if the landlord had paid for the improvements. WACOG officials told us
that they believed that the savings in the monthly rental cost justified the $104,470 payment to
the landlord. However, WACOG officials also said that other than the lease agreement, there
was no formal written contract between WACOG and the landlord with regard to the $104,470.
We determined that, although the amount paid to the landlord exceeded the Federal small
purchase threshold of $100,000 at the time and WACOG's own purchase threshold of $10,000,
no bids were solicited as required by WACOG's internal policy and applicable Federal
procurement regulations.

In addition, WACOG officials told us that they had conducted a review of the fair market price
for the new office space. However, WACOG could not provide documentation demonstrating
that the rental agreement was actually representative of a fair market value with respect to
comparable property and market conditions as outlined in OMB A-87. We were also told by a
WACOG official that the additional office space in Kingman was entirely for purposes of the
Recovery Act Weatherization Program expansion. However, the 5-year lease agreement for the

                                                 3
Kingman office exceeds the remainder of the Recovery Act Weatherization Program funding
period by over two years. Because Weatherization Program funds were used to pay for the
office space improvements and the lease, it is our opinion that a thorough and well-documented
fair market assessment based on the period of Recovery Act Weatherization Program funding
should have been performed.

              WACOG's Purchase Threshold Policy and Lack of Purchase Records

Our testing revealed that WACOG's purchase policy of requiring price quotes based on a cost per
item threshold rather than an aggregate cost of the total purchase was not consistent with Arizona
and Federal procurement policy. In most cases, Federal and State procurement purchase
thresholds are defined using the aggregate cost of a total purchase rather than the individual item
cost of the purchase. However, WACOG's purchasing policy requires obtaining three verbal
price quotes for purchases where the cost per item exceeds $500; three written price quotes for
purchases where the cost per item exceeds $1,000; or the solicitation of bids for purchases where
the cost per item exceeds $10,000. When we presented WACOG officials with examples of
aggregate purchases over $500 and asked why price quotes were not obtained, we were told that
price quotes were not necessary since the costs per unit were below the cost threshold. We
determined that this practice does not ensure consistent best value procurement of goods and
services because under WACOG's current policy, a single purchase of multiple items could cost
thousands of dollars with no requirement for obtaining price quotes or conducting competitive
bidding.

Additionally, during our review we found purchase records that did not provide auditable
evidence that any form of a cost or price analysis was performed. We noted that OMB Circular
A-110, Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals, and Other Non-Profit Organizations, requires that some form of
cost or price analysis be made and documented in the procurement files in connection with
"every" procurement action. OMB A-110 defines cost analysis as the review and evaluation of
each element of cost to determine reasonableness, allocability and allowability. The Circular
also identifies price analysis as an assessment that may be accomplished in various ways,
including the comparison of price quotations, market prices or similar methods. However, not
all purchase records provided evidence of a comparison of price quotations or market prices, or
any determination of cost or price reasonableness, allocability or allowability. The lack of
consistency in conducting cost or price analysis undermines the concept of cost or price
reasonableness, and leaves the program without assurance that purchased items were acquired at
a fair and reasonable price.

Inaccurate Reporting of Information on Completed Housing Units

We found that WACOG and Arizona were not accurately reporting the number of completed
housing units according to Department policy. Specifically, Department Weatherization
Program guidelines, contained in Program Notices: 09-1, 10-1, and 11-1 define completed units
as units with both an energy audit and weatherization work being completed. The Program
Notices underscore the fact that reporting of accurate information is important and meeting
performance goals is paramount to the program. Arizona requires all of its sub-grantees to enter



                                                4
completed weatherized home information into the State's web-based Weatherization Program
database. The sub-grantees are required to enter information about the home and its occupants as
well as the initial energy audit information, the work performed on the home and the results of
the final inspection.

We reviewed 525 completed housing units that WACOG had entered into the State's
Weatherization Program database between January 2010 and April 2011, and determined that 40,
or 7.6 percent, were termed "walkaways," which were defined as housing units where only initial
energy audits were conducted with no weatherization work performed. We learned from
Arizona and WACOG officials that an energy audit may determine that a home does not qualify
for weatherization or the condition of the home is such that work cannot be performed on the
home. Thus, the home is termed a "walkaway" with no further work performed. We determined
that both Arizona and WACOG counted these houses as completed weatherized units and that
this practice was occurring throughout Arizona. An Arizona official told us that from March
2009 to March 2011, the State had reported 4,365 completed housing units to the Department of
which 242 or about 5.5 percent were "walkaways."

During the course of our inspection, we notified Department officials about the reporting errors.
A Department weatherization official stated that at no time should a home where no
weatherization work took place be reported as completed. The official also said that when the
"walkaway" occurs, the home is no longer eligible to receive services, regardless of whether the
condition that caused the deferral is remedied. To the Department's credit, it took immediate
action by instructing Arizona to resubmit corrected, completed housing unit totals for all
applicable years.

Inaccurate Information on Actual Work Performed

WACOG was not always providing Arizona with accurate information regarding work
performed on completed weatherized homes. We tested WACOG's supporting source
documents for a sample of 50 completed housing units and compared that information to the
"work performed" information entered into the State's Weatherization Program database. We
determined that about 60 percent of WACOG's entries into the State's Weatherization Program
database were inaccurate regarding actual work performed on the homes or the costs allocated to
the various funding sources such as LIHEAP or utility funds.

Specifically, we determined that WACOG's source documents accurately reflected the actual
work performed, including any change orders and allocations of the funding sources. However,
we found errors in the State's Weatherization Program database. These errors were the result of
changes made by WACOG to the original scope of work or changes made in the allocation of
funds that were reflected in WACOG's source documents but not updated in the State's
Weatherization Program database after the work was completed. Common changes we noted
involved upgrading to larger capacity heating and cooling units, replacing air ducts instead of
sealing the air ducts, or health and safety related upgrades or repairs. In addition, these changes
often added cost to the projects which necessitated adjusting the amounts charged to the various
funding sources. An Arizona official told us that it is the responsibility of the sub-grantees to
ensure these changes or updates are entered into the State's Weatherization Program database.


                                                 5
Although both Arizona and WACOG officials pointed out that the State's Weatherization
Program database is not used for financial accounting purposes, we determined that the accuracy
of the information in the database is important to Arizona's Weatherization Program and
Arizona's agreement with the Department. For example, we learned that Arizona weatherization
personnel use the database to fulfill their agreement with the Department to conduct a 100
percent desktop review of completed weatherized housing units. In addition, Arizona inspection
personnel use the database to review completed housing unit data and to make selections for the
Department mandated 5 percent on-site inspections of completed housing units. These reviews
and inspections are designed to help ensure that Weatherization Program funds are appropriately
used; and, to its credit, Arizona has conducted on-site inspections of about 17 percent of
WACOG's completed housing units. However, because of errors in the database, Arizona's
desktop reviews and on-site inspections could be negatively impacted. Problems with the quality
of work, undocumented change orders and cost reallocation could also go undetected.

Impact of WACOG's Weatherization Program Weaknesses

Weaknesses in WACOG's management of the procurement of goods and services could result in
the misuse of Weatherization Program funds and increase the risk of fraud, waste and abuse in
the areas of capital expenditures and the purchasing of goods and services. In addition,
weaknesses in WACOG's and Arizona's reporting of completed housing units and actual work
performed could misrepresent the effectiveness of the Weatherization Program and hinder
Arizona's ability to properly oversee WACOG's use of Recovery Act funds for the
weatherization of homes in western Arizona. Accordingly, we have made recommendations that
should help to ensure that the reporting of completed housing units and actual work performed is
done in accordance with Weatherization Program guidelines, and that capital expenditures and
the purchase of goods and services are made in a manner consistent with Federal and State
policies and regulations.

RECOMMENDATIONS

To address the weaknesses we identified during our inspection, we recommend that the Acting
Assistant Secretary for Energy Efficiency and Renewable Energy:

   1. Ensure WACOG adheres to Federal guidelines pertaining to capital expenditures;

   2. Evaluate WACOG's procurement policies and practices with respect to competitive
      pricing and cost/price analysis, and take appropriate action to ensure these policies and
      procedures are consistent with Federal and State procurement regulations;

   3. Evaluate WACOG's Recovery Act expenditures at the Kingman, Arizona, office with
      regard to lease improvements and fair market value of the lease agreement, and take
      action to recover funds if appropriate;

   4. Ensure Arizona and its sub-grantees are reporting accurate data on completed housing
      units and accurate information on work performed on completed housing units in
      accordance with Weatherization Program guidelines; and,


                                                6
   5. Determine if inaccurate reporting of completed housing data is a more widespread
      problem throughout the Department complex, and initiate corrective action as necessary.

MANAGEMENT AND INSPECTOR COMMENTS

Management agreed with the findings and recommendations and is working with Arizona and
WACOG to ensure plans are implemented that address our recommendations. Management is
also reviewing the accuracy of completed housing unit data with their grantees to ensure that no
other state or local agency is misinterpreting policy when reporting completed housing units to
the Department.

Management comments and corrective actions planned and/or taken are responsive to our
recommendations. Management comments are included in their entirety in Attachment 3.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff




                                                7
                                                                               Attachment 1
                       OBJECTIVE, SCOPE AND METHODOLGY

OBJECTIVE

We initiated this inspection to determine whether Weatherization Assistance Program
(Weatherization Program) funds were used and administered for intended purposes and whether
the Western Arizona Council of Governments (WACOG) complied with relevant Federal and
State regulations and program guidelines.

SCOPE

This inspection was performed between February 2011 and February 2012, and included visits to
the Arizona State Energy Office in Phoenix, Arizona, and to the WACOG main office in Yuma,
Arizona. We also visited completed weatherized home sites in Yuma, Arizona.

METHODOLOGY

To accomplish the inspection objective, we reviewed and analyzed:
   • Applicable Federal and State laws, regulations and guidance pertaining to the
       Weatherization Program under the American Recovery and Reinvestment Act of 2009
       and the State of Arizona (Arizona) Weatherization Program and plan;

   •   Arizona's grant agreement with the Department of Energy, Arizona's Weatherization
       Program database, and WACOG's sub-grantee agreement with Arizona;

   •   WACOG's: (a) request for reimbursement reports sent to Arizona; (b) general accounting
       ledgers corresponding to requests for reimbursements; (c) line item ledgers corresponding
       to goods and services purchases and weatherization activities; and, (d) purchase records
       and payments to subcontractors;

   •   WACOG's Weatherization Program and procurement policies and procedures; and,

   •   Pertinent information obtained during interviews with Arizona and WACOG officials.

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspection and Evaluation, January 2011. Those
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our
conclusions and observations based on our inspection objective. The inspection included tests of
controls and compliance with laws and regulations to the extent necessary to satisfy the
inspection objective. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our inspection. Finally, we
relied on computer processed data, to some extent, to satisfy our objective. We confirmed the
validity of such data, when appropriate, by reviewing source documents and performing physical
observations.

The Exit Conference was held on February 2, 2012.


                                               8
                                                                                     Attachment 2


                                       PRIOR REPORTS

Under the American Recovery and Reinvestment Act of 2009, the Office of Inspector General
has initiated a series of audits designed to evaluate the Department of Energy's Weatherization
Assistance Program's internal control structure at the Federal, state, and local levels. Although
not found in every state, these audits have identified issues in areas such as poor quality of
weatherization services, inspections and re-inspections, inadequate inventory controls, and
questioned costs resulting from the ineffective administration of weatherization grants. Our
series of audit reports include the following:

   •   Audit Report on The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act in the State of Tennessee (OAS-
       RA-11-17, September 19, 2011).

   •   Audit Report on The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act in the State of Indiana
       (OAS- RA-11-13, August 26, 2011).

   •   Audit Report on The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act for the Commonwealth of
       Virginia (OAS- RA-11-14, August 25, 2011).

   •   Audit Report on The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act in the State of Missouri (OAS- RA-11-12,
       August 25, 2011).

   •   Audit Report on The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act in the State of West Virginia (OAS- RA-
       11-09, June 13, 2011).

   •   Audit Report on The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act for the State of Wisconsin
       (OAS-RA-11-07, June 6, 2011).

   •   Audit Report on The Department of Energy's Weatherization Assistance Program under
       the American Recover and Reinvestment Act for the Capital Area Community Action
       Agency – Agreed Upon Procedures (OAS-RA-11-04, February 1, 2011).

   •   Audit Report on The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act for the City of Phoenix – Agreed Upon
       Procedures (OAS-RA-11-03, November 3, 2010).

   •   Audit Report on Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
       Implement the American Recovery and Reinvestment Act Weatherization Assistance
       Program (OAS-RA-11-02, November 2, 2010).


                                                 9
                                                                Attachment 2 (continued)


•   Audit Report on The State of Illinois Weatherization Assistance Program (OAS-RA-
    11-01, October 14, 2010).

•   Audit Report on The Department of Energy's Use of the Weatherization Assistance
    Program Formula for Allocating Funds under the American Recovery and Reinvestment
    Act (OAS-RA-10-13, June 11, 2010).

•   Preliminary Audit Report on Management Controls over the Commonwealth of Virginia's
    Efforts to Implement the American Recovery and Reinvestment Act Weatherization
    Assistance Program (OAS-RA-10-11, May 26, 2010).




                                         10
                      Attachment 3


MANAGEMENT COMMENTS




        11
     Attachment 3 (continued)




12
     Attachment 3 (continued)




13
                                                                      Report No. INS-RA-12-01

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message clearer to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


    Name __________________________________ Date ________________________

    Telephone ______________________________ Organization __________________


       When you have completed this form, you may telefax it to the Office of Inspector
       General at (202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
